                                                         The Inspector General           O f f ~ c eof Inspector General
U.S. Departmentof                                                                        Washington, D.C. 20590
Transportation
Office of the Secretary
of Trans~ortation




 January 5,2006



  The Honorable Christopher "Kit" Bond                   The Honorable Joe Knollenberg
  Chairman                                               Chairman
  Subcommittee on Transportation,                        Subcommittee on Transportation,
  Treasury, the Judiciary,                               Treasury, Housing and Urban
  Housing and Urban Development,                         Development, the Judiciary,
  and Related Agencies                                   and District of Columbia
  Committee on Appropriations                            Committee on Appropriations
  United States Senate                                   United States House of Representatives

  The Honorable Patty Murray                             The Honorable John W. Olver
  Ranking Member                                         Ranking Member
  Subcommittee on Transportation,                        Subcommittee on Transportation,
  Treasury, the Judiciary,                               Treasury, Housing and Urban
  Housing and Urban Development,                         Development, the Judiciary,
  and Related Agencies                                   and District of Columbia
  Committee on Appropriations                            Committee on Appropriations
  United States Senate                                   United States House of Representatives

  Dear Chairmen Bond and Knollenberg and Ranking Members Murray and Olver:

  Pursuant to the requirements of the Fiscal Year (FY) 2006 Appropriations Act
  fbnding the Department of ~rans~ortation,'   the purpose of this communication is
  to establish an operating subsidy baseline against which Amtrak's progress will be
  measured. The law requires this so that we, and in turn the Department of
  Transportation and the Congress, will be able to determine whether and to what
  extent Amtrak has achieved savings as a result of operational reforms. Further,
  under the Act, unless we certify that Amtrak has achieved operational savings by
  July 1, 2006, Amtrak will be restricted from using appropriated funds to subsidize
  the net losses from food, beverage, and sleeper car service on any Amtrak route.


  I
      Transportation, Treasury, Housing and Urban Development, the Judiciary, District of Columbia, and
      Independent Agencies Appropriations Act (TTHUD), 2006; Pub. L. No. 109-115.
In our next report, due on April 1, 2006, we will assess the savings to date against
the operating subsidy baseline discussed below. It is not feasible to discuss savings
in the current report for two major reasons. First, Amtrak is in the process of
deciding upon and finalizing cost savings reform initiatives for FY 2006. Second,
we continue to work with Amtrak to establish the operating subsidy sub-baselines
against which we can measure savings from specific reform initiatives.

We have set Amtrak's overall operating subsidy baseline at $586 million. This
baseline represents Amtrak's FY 2006 budget results before implementation of
new strategic reforms. Amtrak will need to reduce its operating losses from this
baseline of $586 million to the subsidized level of $495 million provided in the
FY 2006 appropriations law. To achieve this, Amtrak will have to implement
operational reforms that reflect a combination of cost savings initiatives and
revenue increases. We should point out that the baseline corresponds to Amtrak's
FY 2006 estimated operating losses and is derived from existing strategies and
adjustments for anticipated costs and revenues. Therefore, it includes savings from
initiatives begun in FY 2005 and scheduled to begin in FY 2006.

We recognize that Amtrak closed out FY 2005 with an operating loss of
$475 million, which is significantly lower than the operating baseline established
for FY 2006. However, it is important to point out that the FY 2005 operating loss
incorporated one-time adjustments that may not be repeated, such as a casualty
insurance accrual reversal of $49 million. In our view, a valid and fair assessment
of Amtrak's progress requires a baseline that does not include such one-time
adjustments.

To reduce its operating losses from $586 million to the appropriated subsidy of
$495 million, we note that Amtrak's current FY 2006 budget relies on more than
$90 million in "unidentified budget savings" or "to be determined" initiatives.
Further, the FY 2006 Budget Review presented to the Amtrak Board of Directors
in December 2005 identified the Efficiency Incentive Grants as one potential
funding measure to be used to achieve the required operating savings.

Congress appropriated the $31.72 million for Efficiency Incentive Grants to be
awarded at the discretion of the Secretary. These grants are intended to be used by
the Secretary as discretionary incentives or contingencies, such as in the case of
imminent threat of bankruptcy, loss of a route, or for capital improvements. We
do not believe it would be appropriate to anticipatorily count these discretionary
grants towards achieving the $90 million or more in required savings. We


2
    The Defense Appropriation Act of 2006 rescinded $8.3 million of the $40 million appropriated for
    Efficiency Incentive Grants under TTHUD.
understand that Amtrak will not include these funds in its forthcoming business
plan.

Amtrak has indicated that they are developing real and identiJiable cost savings
initiatives that will be provided to us by the end of ~ a n u a r ~This
                                                                   . ) is a constructive
effort that conveys confidence in Amtrak's ability to achieve operating reform and
when developed should provide a sufficiently specific base against which we will
be able to measure progress.

In monitoring Amtrak's operations we will focus our evaluation on longer term
sustainable efficiency gains derived from structural changes in the way Amtrak
manages its business, rather than savings not associated with operational reform.
We intend to distinguish clearly between expense and revenue improvements
allocable to operational reform and other types of adjustments.

Establishing Sub-Baselines to Amtrak's Operating Subsidy

In addition to an overall corporate baseline, it will be important to establish sub-
baselines that reflect savings from specific initiatives. Therefore, we plan to
establish sub-baselines in the following operational areas:
       food and beverage service,
       sleeper car service on long distance trains,
       maintenance and facilities operations,
       train operations,
       fare and revenue initiatives, and
       labor agreements.

The establishment of these sub-baselines will require an analysis of Amtrak's
FY 2006 business plan. Although Amtrak recently provided us with baseline
estimates for long distance service, sleeper service, and food and beverage service,
we require further financial and operating data to develop initiative-based sub-
baselines consistent with Amtrak's budget framework. We are working with
Amtrak to develop appropriate reporting of these initiatives.




 Amtrak is required to submit a comprehensive business plan for FY 2006 to Congress and the Secretary
 of Transportation by January 30,2006.
Measuring Amtrak's Progress

Our evaluation of Amtrak's net operating savings will be conducted at several
levels of detail: (1) companywide progress on operating savings; (2) operating
savings attributable to the implementation of Amtrak's strategic initiatives;
(3) operating savings by business line-Northeast Corridor operations, long
distance service, state-supported service, infrastructure management, and
unallocated system; and (4) operating savings by route.

Corporate Level Savings. We will evaluate Amtrak's companywide operating
savings and financial performance relative to the $586 million baseline. Any
improvement will be determined from a review and analysis of Amtrak's monthly
financial performance reports and supporting documentation. This will provide a
high-level view of systemwide operational savings resulting from the
implementation of Amtrak's Strategic Reform Initiatives published in April 2005.

Strategic Reform Initiatives. We will identify operating savings attributable to
specific initiatives implemented under Amtrak's Strategic Reform Initiatives and
forthcoming FY 2006 business plan. For example, we will evaluate food and
beverage service cost savings from such actions as renegotiated and new vendor
contracts, simplified dining service, modified equipment, and integrated lounge
and diner car food service on long distance trains.

Business Line Savings. We will evaluate the impact from Amtrak's management
and operational initiatives at ,the business line level. With the exception of sleeper
service on long distance trains, Amtrak's initiatives target operating reform across
all business lines. However, the impact from these reforms may differ based on
the type of service provided. Amtrak's new reporting structure by business line
will facilitate a better understanding of the operating losses incurred and where
efficiencies have been achieved.

Route Level Savings. We will also evaluate the impact of operating savings at
the route level. Our evaluation will provide a detailed assessment of operational
impacts as savings trickle down from Amtrak's Strategic Reform Initiatives. This
assessment will be particularly helpful because we expect the near-term (FY 2006)
results from pilot projects to be limited to specific routes. Savings from larger
scale initiatives that would be spread over multiple routes and eventually, system-
wide will be implemented in future years.

In our opinion, this multi-level approach will provide a comprehensive analysis of
potential and realized operating savings for the longer term provision of a more
efficient and financially feasible intercity passenger rail service.
    We are sending an identical letter to the Secretary of Transportation and the
    Chairman of the Board of Amtrak.

    Sincerely,




'   Inspector General
